No.
IN THE

SUPREME COURT OF THE UNITED STATES
_________
HITOMI ARIMITSU,
Petitioner,
v.

JAMES EDWARD COOK, II,
Respondent.
_________
On Petition For A Writ Of Certiorari
To The Minnesota Court of Appeals
_________
PETITION FOR A WRIT OF CERTIORARI
_________
AMY M. KEATING*
ANDREW A. ZASHIN
CHRISTOPHER R. REYNOLDS
ZASHIN & RICH CO., L.P.A.
950 Main Avenue, 4th Floor
Cleveland, OH 44113
(212) 696-4441
aaz@zrlaw.com
crr@zrlaw.com
aaz@zrlaw.com
*COUNSEL OF RECORD

VALERIE D. ARNOLD
MICAELA A. WATTENBARGER
MICHAEL G. CAIN
ARNOLD, RODMAN &
KRETCHMER, P.A.
2626 E 82nd Street, Suite 355
Bloomington, MN 55425
(952) 955-8008
val@arkmn.com
micaela@arkmn.com
mcain@arkmn.com

Counsel for Petitioner

________________________________________________
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
QUESTIONS PRESENTED
The 1980 Hague Convention on the Civil
Aspects
of
International
Child
Abduction
(“Convention”) requires that a Contracting State stay
any child custody proceeding pending its
determination on a Petition for Return of a Child. Per
Article 16 of the Convention, the stay on the
Contracting State’s custody jurisdiction is lifted if the
child is not returned. The four children in this case
went to Japan with Petitioner in July of 2014. In
January 2016, Respondent obtained an initial Hague
Order from the Osaka Family Court in Japan,
ordering that the return the children to the state of
Minnesota (“Original Hague Order”). The Osaka High
Court issued a decision on February 17, 2017, which
modified the Original Hague Order by ruling that the
children did not need to be returned to the United
States based upon Article 13 affirmative defenses
(“Modified Hague Order”). In December 2017, the
Supreme Court of Japan issued its decision
confirming the Modified Hague Order and finding,
specifically, that the children need not return (“Final
Hague Order”). As a result of the Final Hague Order,
the children were not returned, and child custody
proceeding were commenced in Japan. Despite
Japan’s resolution of the Hague petition, the
Minnesota court disregarded Japan’s Final Hague
Order, ignored Japan’s custody jurisdiction, and
proceeded with its own simultaneous custody
proceedings. The questions presented are:
1. Whether the Minnesota courts’ refusal to
acknowledge the ultimate outcome of
Convention proceedings by a Contracting State

ii
and declining to afford comity to the Final
Hague Order of the Supreme Court of Japan
impermissibly frustrates a core purpose of the
Convention?
2. Whether a Contracting State’s custody
jurisdiction authorized by Article 16 of the
Convention supersedes a State’s exercise of
child custody jurisdiction under the Uniform
Child Custody Jurisdiction and Enforcement
Act (UCCJEA) when a Contracting State does
not order the return of a child?

iii
PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the
caption.

•

•

•

•

•

•

RELATED CASES
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, Court File No. 27-FA-15499, Hennepin County District Court, Fourth
Judicial District of Minnesota. Judgment
entered June 10, 2019.
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, A17-0861, State of
Minnesota in Court of Appeals. Decision filed
January 22, 2018.
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, A17-0861, State of
Minnesota in Supreme Court. Order filed April
17, 2018.
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, A19-0247, State of
Minnesota in Court of Appeals. Order filed,
March 26, 2019.
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, A19-1235, State of
Minnesota in Court of Appeals. Unpublished
opinion filed, April 27, 2020, Judgment entered
August 24, 2020.
In re the Marriage of, James Edward Cook, II,
and Hitomi Arimitsu, A19-1235, State of
Minnesota in Supreme Court. Order filed July
21, 2020.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ………………..

i

PARTIES TO THE PROCEEDING……………

iii

RELATED CASES……………………………….

iii

TABLE OF CONTENTS ………………………..

iv

APPENDIX INDEX……………………………....

v

TABLE OF AUTHORITIES…………………….

viii

PETITION FOR A WRIT OF CERTIORARI…

1

OPINIONS BELOW……………………………...

1

JURISDICTION…………………………………..

1

TREATY AND STATUTORY PROVISIONS
INVOLVED………………………………………..

1

STATEMENT……………………………………..

2

REASONS FOR GRANTING THE
PETITION ……………………………………......

10

I. CERTIORARI IS WARRANTED TO
RESOLVE THE IMPORTANT QUESTION
OF WHETHER LOWER COURTS CAN
REFUSE TO ACKNOWLEDGE THE
ULTIMATE
OUTCOME
OF
CONVENTION PROCEEDINGS BY A COCONTRACTING STATE AND DECLINE
TO AFFORD COMITY TO A FINAL
HAGUE ORDER FROM THE SUPREME
COURT
OF
JAPAN,
THEREBY
IMPERMISSIBLY FRUSTRATING A
CORE
PURPOSE
OF
THE
CONVENTION………………………………..
II. CERTIORARI IS WARRANTED TO
RESOLVE THE IMPORTANT QUESTION

12

v
OF WHETHER LOWER COURTS CAN
REFUSE TO ACKNOWLEDGE THE
ULTIMATE
OUTCOME
OF
CONVENTION PROCEEDINGS BY A COCONTRACTING STATE AND DECLINE
TO AFFORD COMITY TO A FINAL
HAGUE ORDER FROM THE SUPREME
COURT
OF
JAPAN,
THEREBY
IMPERMISSIBLY FRUSTRATING A
CORE
PURPOSE
OF
THE
CONVENTION………………………………..

28

III.THIS CASE PRESENTS AN EXCELLENT
VEHICLE TO ADDRESS THESE TWO
IMPORTANT QUESTIONS ………………..

34

CONCLUSION……………………………………

35

APPENDIX INDEX
Unpublished Opinion, Minnesota Court of
Appeals (April 27, 2020)………………………

1a.

Findings of Fact, Conclusions of Law, Order
for Judgment and Judgment and Decree,
Hennepin County District Court, Fourth
Judicial District of Minnesota (June 10,
2019)……………………………………………..

27a.

Order for Contempt, Hennepin County
District Court, Fourth Judicial District of
Minnesota (June 10, 2019)…………………..

70a.

Order for Bench Warrant, Hennepin County
District Court, Fourth Judicial District of
Minnesota (June 10, 2019)……………………

80a.

vi
Order on attorney’s fees, Hennepin County
District Court, Fourth Judicial District of
Minnesota (filed January 22, 2019 with
judgment entered January 28, 2019)………..
Order declining registration, recognition,
and enforcement of Hague Order, Hennepin
County District Court, Fourth Judicial
District of Minnesota (December 10,
2018)……………………………………………...

82a.

85a.

Decision, The First Petty Branch, Supreme
Court of Japan, Court File “Heisei 29 (kyo)
No. 9 Concerning the case of Osaka High
Court Heisei 29 (wu) No .21 Petition of
modification of a final decision” (December
21, 2017) (“Final Hague Order”) and
certified translation…………………………… 106a.
Decision, The Osaka High Court Heisei, 9th
Civil Division, Court File “2015 (Ra) No.
1404 Case Of Modification to a final decision
on a petition for the Return of a child”
(February 17, 2017) (“Modified Hague
Order”) and certified translation……………. 121a.
Order to Reestablish Subject Matter
Jurisdiction
and
Hague
Convention
Enforcement Order, Hennepin County
District Court, Fourth Judicial District of
Minnesota (December 2, 2016)………………. 135a.
Decision, The Osaka High Court Heisei, 9th
Civil Division, Court File “2015 (Ra) No.
1404 Case Of Modification to a final decision
on a petition for the Return of a child”

vii
(January 28, 2016) (“Original Hague
Order”), and certified translation…………… 148a.
Order and Memorandum, Hennepin County
District Court, Fourth Judicial District of
Minnesota (October 15, 2015)………………... 182a.
Order denying discretionary, The Minnesota
Supreme Court (July 21, 2020)……………… 192a.
De directive Preventie, optredend voor
zichzelf en namens Y (the father) against X
(the mother) (7 February 2001, ELRO nr.
AA9851
Zaaknr:813-H-00)
(INCADAT
reference HC/E/NL 314)……………………… 193a.
C. v. C., 2003 S.L.T. 793 (INCADAT
reference HC/E/UKs 998).............................. 196a.
Harris v. Harris [2010] FamCAFC 221 (5
November 2010) (INCADAT reference
HC/E/AU 119)………………………………….. 199a.
Shults v. Shults, 2012 WL 254496, (Minn.
Ct. App. 2012)………………………………….. 235a.
CA Paris, 13 Avril 2012, No de RG 12/0617
(INCADAT reference HC/E/FR 1189)........... 239a.
Treaty and Statutory Provisions Involved
Excerpts, Convention on the Civil
Aspects Of International Child
Abduction (October 25, 1980)…………….. 242a.
Excerpts, Uniform Child Custody
Jurisdiction and Enforcement Act
(UCCJEA)(Minn. Stat. §518D)……………
244a.
International Child Abduction Remedies
Act, 22 U.S.C. §§ 9001 & 9003 (“ICARA”). 248a.

viii
TABLE OF AUTHORITIES
CASES
Abbott v. Abbott, 560 U.S. 1 (2010) ……... 10, 17-18
Anderson v. Acree, 250 F. Supp.2d 876
(S.D. Ohio 2002)………………………..

19

Aristotle P. v. Johnson, 721 F. Supp.
1002 (N. D. Ill. 1989)………………….

20

Asvesta v. Petroutsas, 580 F.3d 1000
(9th Cir. 2009)………………………….

13, 25

Barzilay v. Barzilay, 536 F.3d 844 (8th
Cir. 2008)………………………………..

2, 3-4, 30

Blondin v. Dubois, 189 F.3d 240 (2d Cir.
1999)……………………………………..

13

Blondin v. Dubois, 238 F.3d 153 (2d Cir.
2001)……………………………………..

21

Broca v. Giron, No. 11 CV 5818 (SJ)
(JMA), 2013 U.S. Dist. LEXIS 31708,
2013 WL 867276 (E.D.N.Y. Mar. 7,
2013)……………………………………..

20

CA Paris, 13 Avril 2012, No de RG
12/0617 (INCADAT reference
HC/E/FR 1189)....................................

26

Chafin v. Chafin, 568 U.S. 165 (2013) …

10

Currier v. Currier, 845 F. Supp. 916
(D.N.H. 1994)…………………………..

24

Custodio v. Samillan, 842 F.3d 1084
(8th Cir. 2016)………………………….

17-19, 23

ix
C. v. C., 2003 S.L.T. 793 (INCADAT
reference HC/E/UKs 998)...................

27

De directive Preventie, optredend voor
zichzelf en namens Y (the father)
against X (the mother) (7 February
2001, ELRO nr. AA9851 Zaaknr:813H-00) (INCADAT reference
HC/E/NL 314)…………………………..

27

de Silva v. Pitts, 481 F.3d 1279 (10th
Cir. 2007)………………………………..

19

Diorinou v. Mezitis, 247 F.3d 133 (2d
Cir. 2001)………………………………..

13-14

DP Commonwealth Cent. Auth., [2001]
HCA 39 (High Ct. Austl.)……………..

23

Ermini v. Vittori, 758 F.3d 153 (2d Cir.
2014)…………………………………….

18, 20-23

Ermini v. Vittori, 2013 U.S. Dist.
LEXIS 56470, 2013, WL 1703590….. 18, 24-25
Giampaolo v. Erneta, 390 F.Supp.2d
1269 (N.D.Ga.2004)……………………

21

Gonzalez v. Gutierrez, 311 F.3d 942 (9th
Cir. 2002)………………………………..

14

Harris v. Harris [2010] FamCAFC 221
(5 November 2010) (INCADAT
reference HC/E/AU 119)………………

24

In re Coffield, 96 Ohio App. 3d 52
N.E.2d 662 (Ohio Ct. App. 1994)........

24

J.M.H. v. A.S., [2010] 367 N.B.R. 2d
200 (N.B. Fam. Ct.) (Can.)…………..

23

x
Lozano v. Montoya Alvarez, 572 U.S. 1
(2014)……………………………………..

10

Monasky v. Taglieri, 140 S. Ct. 719
(2019)…………………………………….

9

Nunez-Escudero v. Tice-Menley, 58 F.3d
374 (8th Cir. 1995)…………………….

21, 24

Rodriguez v. Yanez, 817 F.3d 466 (5th
Cir. 2016)………………………………..

19

Seamans v. Seamans, 73 Ark. App. 27
S.W.3d 693 (2001)……………………..

31

Shults v. Shults, 2012 Minn. App.
Unpub. LEXIS 97 (Minn. App. Jan.
30, 2012)………………………………...

31

Simcox v. Simcox, 499 Supp. 2d 946
(N.D. Ohio 2007)……………………….

21

de Silva v. Pitts, 481 F.3d 1279 (10th
Cir. 2007)………………………………..

17

Tsai-Yi Yang v. Fu-Chiang Tsui, 499
F.3d 259 (3d Cir. 2007)…………………2-4, 19, 30
Villegas Duran v. Arribada Beaumont,
534 F.3d 142 (2d Cir. 2008)…………..

30

Voorhees v. Fischer & Krecke, 697 F.2d
574 (4th Cir. 1983)…………………….

30-31

Watson v. Watson, 272 Neb. 647 (Neb.
Ct. 2006)………………………………..

31

RULES AND STATUTES
22 U.S.C. § 9003(e)(2)(B).......................1, 4-5, 11, 19
Minn. Stat. § 518D…………………………….2, 31-32

xi
U.S. Const., art. VI, cl. 2………………………..30, 33
TREATIES
The Hague Convention on the Civil Aspects
of International Child Abduction,
October 25,1980, 1343 U.N.T.S. at
981-4…………………….6-13, 15-18, 22-23, 25-33
OTHER AUTHORITIES
111 Explanatory Report by E. Perez-Vera,
1980 Hague Conference on Private
International Law, Acts and Documents
of the Fourteenth Session F-1 (1981)…… 19, 29
Kelly Gaines Stoner, The Uniform Child
Custody Jurisdiction & Enforcement Act
(UCCJEA) – A Metamorphosis of the
Uniform Child Custody Jurisdiction Act
(UCCJA), 75 N.D. L. Rev. 301 (1999)……

31

1
PETITION FOR A WRIT OF CERTIORARI
PETITIONER HITOMI ARIMITSU
RESPECTFULLY PETITIONS FOR A WRIT OF
CERTIORARI TO REVIEW THE JUDGMENT
OF THE MINNESOTA COURT OF APPEALS AS
THE MINNESOTA SUPREME COURT
DECLINED DISCRETIONARY REVIEW.
OPINIONS BELOW
The Minnesota Court of Appeals opinion is
available at 2020 Minn. App. Unpub. LEXIS 360. App.
1a. The Order of the Minnesota Supreme Court
denying review is available at App. 192a. The relevant
district court opinions are available at 2018 Minn.
Dist. LEXIS 110 (App. 85a.-105a.) and 2019 Minn.
Dist. LEXIS 190. App. 27a.-69a.
JURISDICTION
The judgment of the Minnesota Court of
Appeals was entered on August 24, 2020. The
Minnesota Supreme Court denied review by Order
issued July 21, 2020. This Court has jurisdiction
under 28 U.S.C. § 254(1).
TREATY AND STATUTORY
PROVISIONS INVOLVED
The Hague Convention and relevant portions of
its enabling statute, the International Child
Abduction Remedies Act, 22 U.S.C. §§ 9001 & 9003
(“ICARA”), as well as the Uniform Child Custody
Jurisdiction and Enforcement Act (“UCCJEA”) (Minn.

2
Stat. §518D), are reproduced in the Appendix. App.
242a.-253a.
STATEMENT
Recognition of treaty partners’ decisions under
the Convention is fundamental to being a Contracting
State and a core principle of the Convention.
Respecting those decisions—and treaty partners
exercising
custody
jurisdiction
under
those
decisions—furthers the Convention’s goals and avoids
international jurisdictional competition over children.
The Convention is in part jurisdictional in its
application, in that one of its purposes is to “provide
for a reasoned determination of where jurisdiction
over a custody dispute is properly placed.” Barzilay v.
Barzilay, 600 F.3d 912,916-18 (8th Cir. 2010), quoting
Yang v. Tsui, 416 F.3d 199, 203 (3d Cir. 2005). Article
16 of the Convention contemplates that a Contracting
State will exercise custody jurisdiction when it
determines that a child is not ordered to return to his
or her place of habitual residence.
The Minnesota Supreme Court’s decision to
allow the Minnesota Court of Appeals’ decision to
stand frustrates a core purpose of the Convention. By
declining to extend comity to a treaty partner’s final
order, the Minnesota Supreme Court ignores the
Supremacy of the Convention and sets a dangerous
precedent that will open the floodgates for relitigation of foreign Convention decisions by our state
trial courts.
Additionally, it undermines the
credibility of the United States as a Contracting State,
exposes our decisions to re-litigation through the
courts of our co-Contracting States, and frustrates a
core purpose of the Convention

3
The Court should grant review to develop and
clarify an important question of federal law—namely,
the recognition of treaty partners’ orders absent
application of a very narrow legal standard to
preserve the United States’ international integrity as
a Contracting State. This Court should also grant
review to address how application of the Convention
should be treated when addressing a direct conflict
between Article 16 of the Convention and the exercise
of custody jurisdiction under the UCCJEA when a
Contracting State determines that a child will not be
returned to the United States. Both issues reflect
important federal questions that lack clarity under
existing law and are likely to generate competing
international custody litigation and frustrate core
purposes of the Convention.
1.
In 1980, the member states of the Hague
Conference on Private International Law – including
the United States – unanimously adopted the 1980
Hague Convention on the Civil Aspects of
International Child Abduction. See U.S. Dep’t of
State, Hague International Child Abduction
Convention; Text and Legal Analysis, Letter of
Submittal from George P. Schultz to Pres. Ronald
Reagan (Oct. 4, 1985), 51 Fed. Reg. 10,494, 10,496
(Mar. 26, 1986). Pursuant to Article 1 of the
Convention, one of the primary objects is to “ensure
that the rights of custody and access under the law of
one Contracting State are effectively respected in
other Contracting States.”
As explained by the Eighth Circuit in Barzilay
v. Barzilay, the Convention determines child custody
jurisdiction in international cases. 600 F.3d 912, 91618. Pursuant to the Convention’s Preamble, a primary

4
purpose of the Convention is “to protect children
internationally from the harmful effects of their
wrongful removal or retention and to establish
procedures to ensure their prompt return to the State
of their habitual residence.” Id. 917-17, citing the
Convention at 98. The Convention establishes this
goal not by establishing any substantive law of
custody, but by acting as a forum selection
mechanism. The purpose of the Convention is, in
other words, to “provide for a reasoned determination
of where jurisdiction over a custody dispute is
properly placed.” Barzilay at 916-918, quoting Yang v.
Tsui, 416 416 F.3d 199 at 203. In cases where the
Contracting States does not order the return, this
forum selection process should determine jurisdiction
to be in the place where the children remain following
the final conclusion of the Hague Proceeding. This is
the crux of the instant litigation.
In 1988, Congress passed the Convention’s
enabling statute, the ICARA. See Pub. L. No. 100-300,
102 Stat. 437 (1988) (codified at 22 U.S.C. §§ 90019011). In its findings relative to this statute, Congress
reiterated the Convention’s purpose, which is “to help
resolve the problem of international abduction and
retention of children” and to return children who are
wrongfully removed or retained “unless one of the
narrow exceptions set forth in the Convention
applies.” § 9001(a)(4). The Convention explicitly
provides that the judicial or administrative authority
of the requested State is not bound to order the return
of the child if the person, institution or other body
which opposes his or her return establishes an
applicable defense, including that “there is a grave
risk that his or her return would expose the child to

5
physical or psychological harm or otherwise place the
child in an intolerable situation.” See Art. 13.
Moreover, the requested State may also refuse to
order the return of the child if it finds that the child
objects to being returned and has attained an age and
degree of maturity at which it is appropriate to take
account of his or her views. Id. As a quasijurisdictional treaty, the Convention’s Article 16
recognition of custody jurisdiction when a return is
not ordered serves the purpose of ensuring that
custody decisions are made in the jurisdiction where
the children are appropriately located, and not, for
example in the jurisdiction that poses a “grave risk” of
harm to the child. When Congress adopted legislation
implementing the Convention, it emphasized “the
need for uniform international interpretation of the
Convention.” 22 U.S.C. § 9001(b)(3)(B).
2.
Petitioner Hitomi Arimitsu, a Japanese citizen,
and Respondent James Edward Cook, II, an American
citizen, were married in 1998 and began residing
together in Minnesota. App. 29a. The parties have
four children, twins born in 2002, and twins born in
2008. App. 39a. Following the birth of the second set
of twins, Arimitsu was a full-time homemaker. App.
43a. Facing ongoing financial difficulties due to Cook’s
chronic unemployment, the parties made plans for
Arimitsu and the children to move to Japan. App. 29a.
Cook was involved in an extramarital affair and chose
to remain Minnesota. Id. On July 13, 2014, Arimitsu
moved with the children to Japan to live with her
parents, who had been supporting them financially.
Id. Cook visited the children in Japan. Id. Cook
supported the children’s move to Japan by completing

6
enrollment paperwork for them to attend school in
Japan. App. 187a.
3.
In 2015, Cook initiated divorce proceedings in
Minnesota. Id. at 2a. Initially, the Minnesota district
court found that it lacked subject matter jurisdiction
over the children and was not the children’s “home
state” under the UCCJEA. Id. Cook failed to appeal
this determination.
In 2016, Japan issued the Original Hague
Order requiring return of the children to the United
States. Id. at 148a.-191a. Based on that Order, Cook
filed a motion before a newly assigned judicial officer
to reestablish subject matter jurisdiction over child
custody Id. at 3a. On December 2, 2016, the
Minnesota district court ordered registration and
enforcement of the Original Hague Order and
overturned its prior ruling to exercise subject matter
jurisdiction over child custody. App. 142a.
Arimitsu provided notice in Minnesota that the
Original Hague Order was subject to an appeal in
Japan, and as such, was not a final order. App. 4a.
Arimitsu appealed the December 2016 Minnesota
decision. App. 5a. Arimitsu also appealed the Original
Hague Order in Japan. App. 4a.
In February 2017, Japan issued the Modified
Hague Order, which determined that the children
were no longer required to return to the United States
pursuant to Article 13 of the Convention. Id.
Despite receipt of the Modified Hague Order,
the Minnesota district court continued to recognize
only the Original Hague Order, and found Arimitsu in
constructive civil contempt for failing to return the
children to Minnesota. App. 78a. On April 4, 2017, the
Minnesota district court denied Arimitsu’s motion for

7
amended findings and upheld its December 2016
Order—that it had custody jurisdiction over the
children and its 2015 Order declaring that Minnesota
was not the children’s “home state” was “clearly
erroneous.” App. 34a. On June 12, 2017, the
Minnesota district court issued additional orders
enforcing the Original Hague Order and ignoring the
Modified version.
Arimitsu appealed the Minnesota district
court’s April 2017 decision, arguing Minnesota lacked
subject matter jurisdiction under the UCCJEA to hear
the parties’ custody dispute. App. 5a. Arimitsu also
asserted that there was no proper registration of the
Original Hague Order. Id. She further argued that by
ignoring the practical and legal ramifications of the
Modified Hague Order, the district court applied a
double standard to the two Japanese orders which
would have the effect of undercutting the intent of the
Convention, as well as the intent of the UCCJEA, both
of which aim to avoid jurisdictional conflicts. Id. On
January 22, 2018, the Minnesota Court of Appeals
affirmed the district court’s April 4, 2017 Order. Cook
v. Arimitsu, 907 N.W.2d 233 (Minn. App. 2018), rev.
denied. (“Cook I”).
4.
On December 21, 2017, while Arimitsu’s 2017
Minnesota appeal was pending, the Japanese
Supreme Court affirmed the Modified Hague Order
that the children need not be returned to the United
States, issuing its Final Hague Order. The Final
Hague Order determined that the older two children
objected to being returned and had attained an age
and degree of maturity to take account of their views
per Article 13; it determined that the younger two
children should not be returned per Article 13(b) both

8
because they would be separated from their older
siblings and due to Cook’s inability to provide for
them. App. 130a.-132a. On March 26, 2018, the Osaka
Family Court vacated money judgments previously
entered against Arimitsu in Japan. Id. at 129.
On May 23, 2018, Arimitsu filed for registration
and enforcement, pursuant to the UCCJEA, of the
Final Hague Order, the Modified Hague Order, and
the Certification of the final decision, which ordered
that the children need not return to the United States.
Following Cook’s objection to registration and
enforcement, Arimitsu filed a motion on September
17, 2018 seeking registration and enforcement of the
above-referenced Orders pursuant to the UCCJEA
and/or under the doctrine of comity, as well as
recognition of the 2018 Decision of the Osaka Family
Court, which vacated monetary judgments ordered
against Arimitsu. App. 93a. Arimitsu’s motion also
included a request for an order recognizing the child
custody jurisdiction of Japan or, in the alternative
declining jurisdiction as Japan was the more
appropriate forum. Id. By Order filed December 10,
2018, the Minnesota district court denied Arimitsu’s
motions in their entirety. Id. at 104a.
5.
On February 8, 2019, Arimitsu appealed the
district court’s December 10, 2018 Order, Id. at 5a.
The Minnesota Court of Appeals, without the benefit
of full briefing or oral argument addressing the impact
of the new Japanese court orders, dismissed the
appeal as an improper request to reverse Cook I on
March 26, 2019. Id.
6.
On May 7, 2019, the Minnesota district court
held a trial on the dissolution matter including child
custody. Arimitsu did not appear. On June 10, 2019,

9
the district court filed its Findings of Fact,
Conclusions of Law and Judgment and Decree. App.
27a.-69a. Cook was awarded sole legal and sole
physical custody of the children, subject to Arimitsu’s
right to supervised parenting time. In its findings, the
district court concluded that Japan’s rescission of the
earlier Original Hague Order was “in abject violation
of the Hague Convention.” App. 56a. The district court
disregarded the Modified Hague Order and the Final
Hague Order, finding that the Minnesota district
court found that it had a “duty to uphold the tenets of
the Hague Convention—even if a sister signatory fails
to do so—and Japan has failed in this case at every
juncture—to the detriment of destroying the
childhood of each of the four children present in this
case.” App. 30a. It concluded that Japan had acted
“contrary to the intention of the Hague Convention”
and its decision “rests on a faulty application of Article
13(b) of the Hague Convention”. App. 58a.
On June 10, 2019, without notice to Arimitsu,
the district court filed an Order for Contempt (App.
6a.) issued a bench warrant (App. 80a.) and entered
judgment as to contempt. App. 79a.
7.
Arimitsu appealed the district court’s June 10,
2019 Judgments and Orders on August 6, 2019. App.
6a. By Unpublished Order filed April 27, 2020, the
Court of Appeals affirmed the decisions of the district
court, except that it reversed and remanded the
contempt order for further proceedings. Cook v.
Arimitsu, 2020 Minn. App. Unpub. LEXIS 360 (Minn.
App., Apr. 27, 2020), rev. denied. (“Cook II”). On July
21, 2020, the Minnesota Supreme Court denied
Arimitsu’s petition for further review. App. 192a.

10
8.
Custody proceedings concerning the parties’
four (4) children are ongoing in Japan; Cook actively
participates in these proceedings. Simultaneously,
the Minnesota district court continues to exercise
custody jurisdiction over the children. Accordingly,
the Japanese and Minnesota courts’ contrary and
conflicting
orders
will
continue
absent
a
determination as to the Supremacy of the Contracting
State’s jurisdiction when a return order is denied.
REASONS FOR GRANTING THE PETITION
In the past decade, this Court has granted
review four times to clarify application of the
Convention. See Lozano v. Montoya Alvarez, 572 U.S.
1 (2014)(equitable tolling); Chafin v. Chafin, 568 U.S.
165 (2013)(mootness); Abbott v. Abbott, 560 U.S. 1
(2010)(custody rights); and Monasky v. Taglieri, 140
S. Ct. 719 (2019)(habitual residence). The Court has
never addressed either of the following: (1) recognition
of treaty partners’ orders under the Convention; or (2)
the direct conflict between Article 16 and the
UCCJEA, including specifically the implications of
Article 13 defenses on state subject matter
jurisdiction regarding child custody as well as when a
return order is denied on other grounds. This case
provides the Court with a valuable opportunity to
address important federal questions about our
responsibilities as a Contracting State and when state
courts must yield child custody jurisdiction to a treaty
partner when a child is not ordered to return.
The Minnesota courts’ decision to ignore the
Final Hague Order of the Supreme Court of Japan
sets a dangerous precedent that will open the
floodgates for re-litigation of foreign Convention

11
decisions by our state courts and will undermine the
credibility of the United States as a Contracting State.
Of further concern is the inconsistency between our
own governmental bodies with respect to whether or
not the Order of the Supreme Court of Japan is
“contrary to the intention of the Hague Convention.”
While the Minnesota courts found that the Final
Hague Order is “contrary to the purpose of the
Convention,” the U.S. Department of State disagrees.
The 2019 and 2020 Annual Reports on International
Child Abduction issued by the U.S. Department of
State pursuant to the Sean and David Goldman
International Child Abduction Prevention and Return
Act of 2014, 22 U.S.C. § 9111, et. seq. (“ICAPRA”),
provide that Japan is not a country that has
demonstrated a pattern of noncompliance. Rather, the
2020 Report notes that “[t]he United States and the
Japanese Central Authorities have a strong and
productive relationship that facilitates the resolution
of abduction cases under the Convention.” The
Reports also suggest that the U.S. State Department
considers the present case as being resolved as the
2019 IPCA cases listed by the U.S. State Department
do not identify outstanding cases involving Japan
listed for Minnesota.
Contrary to the Minnesota Court of Appeals’
reference to the “unique facts” of this case, these legal
issues will surface each time a Contracting State
declines to order the return of a child to the United
States under the Convention. The Minnesota lower
courts’ analyses are critically defective by rejecting a
treaty partner’s application of an affirmative defense
under the Convention. Similarly, the lower courts’
analyses undermine the purpose and effect of Article

12
16 of the Convention, which provides that a
Contracting State may exercise jurisdiction over child
custody once it is determined that child “is not to be
returned.” If the Japanese Supreme Court’s Final
Hague Order and similar determinations by other
Contracting States are not recognized by United
States state courts, the result will be a continuation of
simultaneous and inconsistent litigation and court
rulings in both Contracting States.
The Court should not permit this intolerable
tension between Contracting States to persist in the
United States. In the absence of clarity, this
Minnesota decision and others like it will inevitably
have the effect of encouraging jurisdictional
competition and will undermine the purposes of the
Convention and principles of federal and
international law in direct contravention of
Congress’s emphasis on “the need for uniform
international interpretation of the Convention.” 22
U.S.C. § 9001(b)(3)(B).
This Court should grant review to restore the
“uniformity” that Congress deemed essential in the
Convention setting and Certiorari is warranted to
resolve whether Minnesota courts’ refusal to
acknowledge the ultimate outcome of Convention
proceedings by a co-Contracting State impermissibly
frustrates a core purpose of the Convention.
I.
CERTIORARI
IS
WARRANTED
TO
RESOLVE THE IMPORTANT QUESTION OF
WHETHER LOWER COURTS CAN REFUSE TO
ACKNOWLEDGE THE ULTIMATE OUTCOME
OF CONVENTION PROCEEDINGS BY A COCONTRACTING STATE AND DECLINE TO

13
AFFORD COMITY TO A FINAL HAGUE ORDER
FROM THE SUPREME COURT OF JAPAN,
THEREBY IMPERMISSIBLY FRUSTRATING A
CORE PURPOSE OF THE CONVENTION.
The Japanese Orders, specifically the Final
Hague Order affirming the Modified Hague Order,
should be afforded comity; refusing to do so
undermines and frustrates a core purpose of the
Convention. Japan’s interpretation of Article 13(b) of
the Convention is fully consistent with the purpose of
the Convention and the interpretation of other
jurisdictions, including the Eighth Circuit as set forth
below. The presumption is that treaty partner’s orders
should be afforded comity; the lower courts failed to
show that these Japanese Orders meet the very
narrow exception set forth in existing case law. The
Final Hague Order is not a “clear misrepresentation
of the Hague Convention” and meets a minimum
standard of reasonableness. The lower courts erred in
declining to afford comity to the Japanese Orders and
expanding a narrowly tailored exception to substitute
their judgment for that of a treaty partner’s highest
court.
1.
As the Ninth Circuit stated in Asvesta v.
Petroutsas, 580 F.3d 1000, 1011 (9th Cir. 2009):
The few United States courts that have
addressed the extension of comity to
Hague Convention orders or foreign
courts “have observed that comity ‘is at
the heart of the Hague Convention.’”
Diorinou v. Mezitis, 247 F.3d 133, 138-39
(2d Cir. 2001)(quoting Blondin v. Dubois,
189 F.3d 240, 248 (2d Cir. 1999)). The
Second Circuit has noted that, where

14
comity is at issue, a court properly begins
its analysis “with an inclination to accord
deference”
to
a
foreign
court’s
adjudication of a related Hague petition.
Diorinou, 237 F.3d at 145. We agree.
Such an approach is consistent with the
Convention drafters’ primary concern
“with securing international cooperation
regarding the return of children
wrongfully taken by a parent from one
country to another.
Gonzalez v. Gutierrez, 311 F.3d 942, 944 (9th Cir.
2002).
The Ninth Circuit, however, also found United
States courts may “properly decline to extend comity
to the [foreign] court’s determination if it clearly
misrepresents the Hague Convention, contravenes
the Convention’s fundamental premises or objectives,
or fails to meet a minimum standard of
reasonableness.” Id.
The lower courts declined to extend comity to
the Final Hague Order (affirming the Modified Hague
Order) on three grounds: (1) because the findings
supposedly “lacked support in the factual record” and
the conclusions were made “absent any evidence.”; (2)
because the findings were “contrary to the Hague
Convention text and purposes,” and in “violation of
the Hague Convention,”; and (3) because the findings
were “inconsistent with how courts in the United
States interpret the Hague Convention’s limited
exceptions” and are “contrary to…U.S. law.” App. 96a.
The lower courts accordingly rejected these Orders’
application of Article 13 defenses.

15
The strong presumption is that comity should
be afforded absent meeting a very narrow exception.
Here, the lower courts ignore the presumption for
comity and use the exception to “swallow” the rule.
The lower courts show no deference to the Final
Hague Order from Japan’s highest court and instead
conduct a re-trial of the Japanese’s courts factual
findings and substitute their interpretation of the
Convention when the narrow exceptions did not
apply. Simply put, there was no deference to the
Japanese courts’ factual findings and Minnesota
applied a new standard of ‘re-finding the facts.’
Moreover, Japan’s interpretation of Article 13’s
“mature child” defense and the grave risk of harm
defense are consistent with the interpretation of other
jurisdictions, including various U.S. Circuits, and
should have been afforded comity, recognized, and
enforced.
The Japanese courts found the “mature child”
defense was applicable as the parties’ oldest children
strongly objected to being returned to the United
States and have attained an age and degree of
maturity at which it is appropriate to take account of
their views. App. 130a. At the time of the Japanese
trial, the older children (twins) were twelve years and
nine months (12 years, 9 months) of age; when the
Final Hague Order was issued, the older twins had
turned fifteen (15). Accordingly, the Japanese trial
court declined to order the return of the older children.
Id. The Japanese Supreme Court further affirmed the
conclusion that the children would be placed in an
intolerable situation if the younger children were
returned to the United States without their older
siblings given their close relationship. App. 131a.

16
Additionally, Cook did not have the ability to provide
the children with stable housing or a suitable
custodial environment. Id.
The Japanese Court’s findings regarding the
maturity of the older children and the impact on the
children (collectively) of separating them are in direct
conflict with the findings of the Minnesota trial court.
The Minnesota decision does not just incorrectly apply
the facts to the law, it fashions a new legal standard
that gives absolutely no deference to the Contracting
State’s decision and no presumption in favor of
comity.
2.
The lower courts improperly declined to afford
comity to the Japanese Orders based on a finding that
the Japanese Court lacked supporting evidence. App.
96a. The district court’s role in deciding whether to
afford comity to a foreign order is to determine
whether the Japanese Court “clearly misrepresented
the Convention or failed to meet a minimum standard
of reasonableness.” App. 140a. This is not and should
not be a pure de novo review or an alteration of the
result because Minnesota could have found
differently. The legal standard does not permit ‘refinding of facts’ without any deference. App. 9a.
Moreover, the Minnesota courts did not have access to
the 2017 Japanese record—so it was impossible for
them to determine what “supporting evidence” was
presented, much less that it was insufficient. App.
96a. Because an analysis of whether the Japanese
Court’s findings were properly supported by the
record is both outside of the Minnesota court’s role
and impossible given the information available to the
trial court, it was improper for the trial court to
decline to afford comity to the Japanese Orders based

17
on a finding that the Japanese Court lacked
supporting evidence.
Moreover, the Japanese Court’s Final Hague
Order (and Modified Hague Order), largely relied on
previous findings made in the Original Hague Order
concerning the older twins’ objections to being
returned to the United States,
their maturity,
appropriate reliance on the older twins’ statements,
and the close relationships between the siblings. App.
116a., 130a. The Minnesota trial court previously
affirmed these prior findings by recognizing and
enforcing the Original Hague Order in its December
2, 2016 Order. App. 135a. It is illogical and clearly
erroneous for the district court to then find that the
Japanese Court’s findings “lacked supporting
evidence” when it previously affirmed many of the
same findings by recognizing and enforcing the
Original Hague Order.
3.
The trial court improperly declined to afford
comity to the Japanese Orders based on a finding that
the findings in the Japanese Orders were contrary to
the Convention. App. 139a.
The trial court completely failed to identify
which findings in the Japanese Order it believed were
contrary to the Convention. The Minnesota lower
courts acknowledged and enforced the Original Hague
Order but then failed to acknowledge and enforce the
Final (and Modified) Hague Order which overturned
it. Id. This inconsistent recognition has created chaos
resulting in inconsistent rulings and obligations while
undermining uniform application of international
law.
This Court, in Abbott v. Abbott, 560, 23, U.S. 1
(2010), found that “the best interests of the child are

18
well-served when decisions regarding custody rights
are made in the country of habitual residence.” Abbott,
however, specifically did not involve interpretation or
application of Article 13 exceptions. Id. at 22. While
it is true that, generally, the Convention intends that
custody rights be determined in the place of the child’s
habitual residence, the Convention also expressly
provides the defenses in Article 13 to address
situations where the child will, appropriately, not be
returned to the child’s place of habitual residence and
where, accordingly, custody rights will be determined
by the place the child now resides. Japan applied
Article 13 defenses to determine that all the children
should not be returned to their habitual residence;
such a situation is contemplated by the Convention.
The Minnesota courts are flawed in their view that it
is “contrary to the Convention” not to order a return
in all cases. App. 139a
4.
The lower courts erred and improperly declined
to afford comity to the later Japanese Orders based on
a conclusion that the findings in those Japanese
Orders were inconsistent with how courts in the
United States interpret the Convention’s Article 13
defenses. While this conclusion is demonstrably
inaccurate, the correct standard is whether Japan
clearly misinterpreted the Convention or failed to
meet a minimum standard of reasonableness, not
whether a Japanese Order is specifically consistent
with how the United States has interpreted the
Convention defenses. This conflict of standards
requires this Court’s intervention.
Moreover,
Japan’s
interpretation
and
implementation of the “mature child” defense is
consistent with the interpretation of other

19
jurisdictions, including the United States. In Custodio
v. Samillan, 842 F.3d 1084 (8th Cir. 2016), the court
held that for a parent to succeed on a mature child
defense the parent must establish by a preponderance
of the evidence, “(1) that the child has ‘attained an age
and degree of maturity at which it is appropriate to
take account of its views’ and (2) ‘that the child objects
to being returned.’” Id. at 1089, citing Convention Art.
13; see 22 U.S.C. § 9003(e)(2)(B)(burden of proof);
Rodriguez v. Yanez, 817 F.3d 466, 474 (5th Cir.
2016)(affirming this two-part test). The Eighth
Circuit held that the child’s objections themselves are
reviewed using a clear error standard, as a finding of
whether or not a child has objected is a “factintensive” determination. 842 F.3d at 1089. In fact,
the court held that “[t]he child’s objections can be the
sole reason that a court refuses to order return, but
when they are, the ‘court must apply a stricter
standard in considering a child’s wishes.’” Id., quoting
Tsai-Yi Yang v. Fu-Chiang Tsui, 499 F.3d 259, 278 (3d
Cir. 2007)(quoting de Silva v. Pitts, 481 F.3d 1279,
1286 (10th Cir. 2007)). This reasoning is consistent
with the Perez-Vera Explanatory Report, which
indicates that the drafters of the Convention believed
a mature child’s views on return can be “conclusive.”
Id., citing Elisa Perez-Vera, Explanatory Report:
Hague Convention on Private International Law ¶ 30
(1981),
http://assets.hcch.net/upload/expl28.pdf
(“Perez-Vera Report”). The Perez-Vera Report also
noted that “in this way, the Convention gives children
the possibility of interpreting their own interests.” Id.
In Custodio, the child wished to remain in the
United States because he did not want to be separated
from his siblings or mother, because he did not feel

20
safe with his father, who was aggressive, and because
he liked his friends and school in the United States.
Custodio, 842 F.3d at 1090. The trial court found the
child was “very thoughtful and intelligent” and that
his testimony represented his “genuine thoughts and
feelings”, Id., and refused to order his return to Peru.
Id. The 8th Circuit affirmed, acknowledging the
mother’s actions in bringing the children to the United
States with no intention of returning the children and
thereafter disobeying five orders from the Peruvian
court compelling her to return the children were
concerning, but found that the trial court’s decision to
nonetheless respect the 15-year-old’s opposition to
returning to Peru was not an abuse of discretion. Id.
at 1091-1092.
Additionally, other U.S. Circuits have
employed this defense in cases involving separation of
siblings. In Ermini v. Vittori, 758 F.3d 153, 167 (2d
Cir. 2014), the Second Circuit affirmed the lower
court’s declination to separate children, as “[c]ourts in
[the Second] Circuit have frequently declined to
separate siblings, finding that the sibling relationship
should be protected even if only one of the children can
properly raise an affirmative defense under the Hague
Convention.” Id. quoting Ermini v. Vittori, 2013 WL
1703590 (emphasis added), citing Blondin v. Dubois,
78 F. Supp. 2d 283, 291 (S.D.N.Y. Jan. 12, 2000),
Aristotle P. v. Johnson, 721 F. Supp. 1002, 1005-06 (N.
D. Ill. 1989), and Broca v. Giron, No. 11 CV 5818
(SJ)(JMA), 2013 WL 867276, at *9 (E.D.N.Y. Mar. 7,
2013).
Many courts have found that children age 12—
or younger—have reached an age and maturity level
sufficient to trigger the Article 13 “maturity”

21
provision. See Simcox v. Simcox, 499 Supp. 2d
946,952 (N.D. Ohio 2007) (12- and 10-year-old
children found to be of sufficient age and maturity);
See Giampaolo v. Erneta, 390 F.Supp.2d 1269
(N.D.Ga.2004) (age 10); Anderson v. Acree, 250 F.
Supp.2d 876, 883-884 (S.D. Ohio 2002) (age 8);
Blondin v. Dubois, 238 F.3d 153, 164 (2d Cir. 2001)
(age 8).
In the instant case, in its October 30, 2015
Order the Osaka Family Court found that the older
children (who were 12 years and 9 months old at that
time) had an independent, reliable basis for objecting
to being returned to the United States. They were of
sufficient age and maturity to have their opinions
considered by the Court. App. 177a.
The two older children had several reasons for
objecting to being returned to the United States,
including social relationships and friends in Japan,
fear of being separated from their siblings and
mother, strong preference for the Japanese
educational system, and identification with and
assimilation into Japanese culture. Id. at 178.
Importantly, one child clearly stated he was afraid of
Cook and that Cook’s mother had threatened him.
App. 176a.
The Osaka Family Court found the older
children stated their wishes clearly and logically.
They both had an objective and proper understanding
of the situation. There was no indication that their
opinions were swayed by either parent. Considering
the boys’ ages and maturity level, the Osaka Family
Court concluded their opinions should be considered.
App. 177a. At the same time, the Osaka Court found
the two younger children were not of sufficient age or

22
maturity to express an independent, reliable
preference, with an objective understanding of the
situation. Id.
The Original Hague Order ordered all children
return to the United States, as it would be harmful to
separate the children. The Osaka Family Court,
however, did find the older children “were matured
enough [sic] for their age (12 years and 9 months)” and
found “they stated their own opinions to the probation
officer, keeping a certain distance from both [Cook’s]
and [Arimitsu’s] ideas” and “do not seem to have been
under the undue influence of [Arimitsu].” Id. The
Minnesota trial court affirmed this Order, and
therefore, its findings, when it recognized and
enforced it.
In the subsequent Modified Hague Order, the
Osaka High Court, found the older children continue
to strongly refuse to be returned to the United States,
and that, based on that objection, no return was
ordered. App. 130a. The High Court also found Cook
did not have stable housing in the United States, that
it was not clear whether he would be able to provide
stable housing or a stable environment for the
children if they returned, that Cook did not have
adequate support in the United States, and Arimitsu
would not be able to feasibly return to the United
States with the children in order to provide them with
stable housing and a stable custodial environment.
App. 132a. The Osaka High Court found the above
circumstances constituted a grave risk of physical and
psychological harm if the children are returned or
would otherwise place the children in an intolerable
situation. App. 8, 58, 97, 114-116, 131.

23
On December 21, 2017, the Japanese Supreme
Court affirmed the Modified Hague Order and issued
the Final Hague Order. App. 106a.-120a. In doing so,
the Japanese Supreme Court found the older children
had expressed their intention that they strongly
refused to be returned to the United States and that
all children expressed a wish to not be separated from
their siblings. App. 116a. The Japanese Supreme
Court thus concluded there were grounds for refusing
to return the older children in that they strongly
object to being returned and for refusing to return the
younger children on the grounds that it would create
an intolerable situation to separate the children
(collectively), who have a close relationship. Id.; see
also Ermini, at 167.
Japan’s decision not to return the older
children due to their ongoing objections as mature
children is entirely consistent with Article 13(b). See,
e.g., Custodio, at 189.
5.
The Japanese Court’s interpretation of the
grave risk of harm defense is also consistent with that
of other United States Circuits. In Nunez-Escudero v.
Tice-Menley, 58 F.3d 374 (8th Cir. 1995), the court
held “[t]he Article 13b inquiry does not include an
adjudication of the underlying custody dispute and
only requires an assessment of whether the child will
face immediate and substantial risk of an intolerable
situation if he is returned to [the place of habitual
residence] pending final determination of the parents’
custody dispute.” 58 F.3d at 377 (internal citations
omitted). The court went on to state:
[b]ecause Article 13 provides that the
state ‘shall take into account the
information relating to the social

24
background of the child,’ it has been held
that the court may consider the
environment in which the child will
reside upon returning to the home
country….To ensure that the child is
adequately protected, the Article 13b
inquiry
must
encompass
some
evaluation
of
the
people
and
circumstances awaiting that child in the
country of his habitual residence.
Id. at 377, citing Currier v. Currier, 845 F. Supp. 916,
923 (D.N.H. 1994) and In re Coffield, 644 N.E.2d 662,
665 (Ohio Ct. App. 1994). The Second Circuit found it
was appropriate to refuse to separate siblings even if
only one or some of the siblings could raise an
affirmative defense under the Convention. Ermini,
758 F3d at 167.
These U.S. courts found it harmful to separate
siblings as a result of some, but not all, of the children
being able to claim a separate affirmative defense.
Here, Japan ultimately found it would create an
intolerable situation for the children to be separated,
if the older children remain in Japan and the younger
children are returned to the United States. On that
basis, the Japanese Supreme Court found that the
younger children should also not be returned. This is
entirely consistent with the considerations in Ermini
and Nunez-Escudero of the environment to which the
children would be returned.
Japan’s interpretation of the “grave risk”
defense and, in particular, what constitutes an
“intolerable situation,” and the application of this
defense to the present case, is consistent with how the
various United States Courts of Appeal have

25
interpreted and applied this defense and, thus, cannot
be a “clear misrepresentation of the Convention.”
Accordingly, to the extent they were made on the
grounds of the grave risk defense, the later Japanese
Orders should be afforded comity, recognized, and
enforced.
Other circuits have recognized different forms
of psychological harm under Article 13(b). In Ermini,
the Second Circuit concluded that removing a child
from his therapy program for autism and being
repatriated put the child in grave risk of harm.
Ermini, 758 F.3d at 165-167. The Ermini court noted
that “Article 13(b) explicitly lists ‘psychological’ harm
and ‘physical’ harm as appropriate harms for
triggering the Convention's affirmative defenses” and
deferred to the trial court’s factual findings. Id. at
166.
The Japanese Courts’ considered the
psychological harm to the children and found that
Cook’s financial circumstances not only served as a
change of circumstances warranting revisiting the
Osaka Family Court’s prior orders, but also posed a
“grave risk of harm” in that the children would not
even have suitable housing or an adequate custodial
environment if returned to the United States. App.
114a. The Japanese Supreme Court found Cook did
not have an economic base necessary to provide
adequate care to and nurture of the children, and that
he was not in a situation where he could expect to
receive support from his relatives. Id. The Japanese
Supreme Court found Cook’s inability to provide
stable housing and to care for and nurture the
children posed a grave risk to the children’s physical

26
or psychological wellbeing if they were to be returned
to the United States. Id.
The forgoing is consistent with how other
international courts have interpreted “grave risk of
harm.” The appellate level of the Family Court of
Australia addressed this issue in Harris v. Harris
[2010] FamCAFC 221 (5 November 2010) (INCADAT
reference HC/E/AU 119). There, the court accepted
the trial court’s finding that returning the child from
Australia to Norway would place him in an intolerable
situation as the mother, who had brought the child to
Australia, would be in a financially precarious
position if she returned to Norway with the child. App.
224a.-228a. She would be without emotional support,
and isolated. Id. Accordingly, the Australian Court
found, as the child was dependent on the mother for
all his needs, a return to Norway would place him in
an intolerable situation. Id. at 228a.
Similarly, the French Cour d’appel de Paris,
Pole 1, chamber 1, addressed the grave risk of harm
defense in CA Paris, 13 Avril 2012, No de RG 12/0617
(INCADAT reference HC/E/FR 1189). There, the
appellate court found the children could not be
returned to Belgium from France without being
returned specifically to their mother’s care, as father
was established in France. App. 241a. The court
further found it had been established the material
conditions of the mother’s living were incompatible
with care for the daughters, and that the mother’s
home was not adequate for the girls’ mental and
educational environment. Id. The court also noted the
girls had expressed their wish to continue living with
their father in France. Id.

27
This issue was again addressed by a Dutch
court in De directive Preventie, optredend voor zichzelf
en namens Y (the father) against X (the mother) (7
February 2001, ELRO nr. AA9851 Zaaknr:813-H-00)
(INCADAT reference HC/E/NL 314). The appellate
court there held the trial court appropriately refused
to order the return of the child, despite a wrongful
removal, both on the grounds the child had expressed
strong opposition to returning to Canada and on the
grounds the child’s mother would not be able to return
to Canada since she had no means of support there.
App. 195a. Consequently, the child would have to
return alone and the separation from his mother
would cause him a grave risk of harm. Id.
A Scottish court made a similar decision in C.
v. C., 2003 S.L.T. 793 (INCADAT reference HC/E/UKs
998). The court there exercised its discretion in
declining to enter a return order on the grounds that
it would put the child in an intolerable situation if she
were returned when it was not possible or practicable
for her mother to return with her. App. 197a.-198a.
Likewise, here, Arimitsu’s financial circumstances
represented a genuine obstacle to her returning. Id.
In the present case, the Osaka High Court
found Cook lost his house, did not have financial
support or means to obtain a suitable living
environment, and that neither custody by Arimitsu’s
relatives nor by Cook’s relatives was feasible. App.
132a. The Final Hague Order accordingly affirmed
that a return of the children to the United States
would put them in grave risk of harm. App. 114a.
Because Japan’s interpretation of Article 13 is
consistent with that of other jurisdictions, it is not a
“clear misrepresentation” of the Convention. The

28
lower Minnesota courts erred by ignoring the strong
presumption in favor of comity for Treaty Partners’
decisions (see Asvesta and its progeny) and declining
to afford comity to the Final Hague Order. The lower
courts invented a new and inappropriate legal
standard in which what is to be a narrow exception
becomes a chasm and Treaty Partners’ findings of fact
are re-litigated. The lower courts then substituted
their errant judgment to conclude that the Japanese
Orders were inconsistent with how courts in the
United States interpret the Convention’s exceptions.
II.
CERTIORARI
IS
WARRANTED
TO
ADDRESS
THE
CONFLICT
BETWEEN
ARTICLE 16 OF THE HAGUE CONVENTION
AND THE UNIFORM CHILD CUSTODY
JURISDICTION AND ENFORCEMENT ACT
(UCCJEA) WHEN CONTRACTING STATES DO
NOT ORDER THE RETURN OF A CHILD.
The lower courts erred by exercising subject
matter jurisdiction over child custody in violation of
Article 16 of the Convention as Japan is now the
proper place to make a custody determination. This
Court must clarify the United States’ interpretation of
Article 16 so as to comply with the text of the
Convention and to address inconsistent applications.
The Minnesota courts should have deferred to Japan’s
custody jurisdiction and dismissed its action because
the Japanese Supreme court made a final
determination that the children need not return to
Minnesota. On that basis, Japan properly initiated
child custody proceedings consistent with its own laws
and Article 16 of the Convention.

29
When lower courts ignore Article 16 and
continue to exercise custody jurisdiction in absence of
a return order, an unacceptable tension arises
between the Convention and the UCCJEA that has
not been directly addressed. Absent clear direction,
future cases—like this one—will result in competing
court orders in multiple jurisdictions, with the subject
children caught in the middle.
1.
Article 16 of the Convention states that a
“Contracting State to which the child has been
removed…shall not decide on the merits of rights of
custody until it has been determined that the child is
not to be returned under this Convention…” Art. 16
(emphasis added). The clear text of Article 16
provides a jurisdictional threshold.
The prohibition against a Contracting State
that is not the child’s habitual residence exercising
custody jurisdiction “disappear[s] when it is shown
that, according to the Convention, it is not appropriate
to return the child, or where a reasonable period of
time has elapsed without an application under the
Convention having been lodged.” Perez-Vera Report,
at 463. Article 16 clearly contemplates circumstances
where—when the child is not ordered to return for a
variety of reasons, including Articles 12, 13 or 20—the
Contracting State where the child is then located
should and will exercise custody jurisdiction.
2.
The Minnesota Court of Appeals asserted
subject matter jurisdiction over custody on January
22, 2018 when it affirmed the district court’s April 4,
2017 Order. Cook I. That decision was based on the
now-modified Original Hague Order (which initially
ordered the return of the children). The Final Hague
Order (affirming the Modified Hague Order) was

30
ignored and Arimitsu’s appeal was dismissed without
allowing the parties full briefing or oral argument.
App. 5a. Moreover, the Minnesota district court made
additional findings of facts and conclusions of law
relative to child custody in its June 2019 and
December 10, 2019 Orders. App. 27a.-69a., 85a.-107a.
Accordingly, Arimitsu unsuccessfully raised the issue
that Minnesota’s usurping subject matter jurisdiction
again is in direct conflict with Article 16 and federal
law, including the Supremacy Clause.
3.
In effect, the Convention is jurisdictional in its
application. As explained in Barzilay v. Barzilay, the
Convention determines child custody jurisdiction in
international cases. Barzilay, 536 F.3d at 853. The
Convention accomplishes this goal not by establishing
any substantive law of custody, but by acting as a
forum selection mechanism, operating on the
principle that the country where the children are
ultimately ordered to reside is “the best place to decide
upon questions of custody and access.” Id.; see also
Villegas Duran v. Arribada Beaumont, 534 F.3d 142,
146 (2d Cir. 2008). In other words, the purpose of the
Convention is to “provide for a reasoned
determination of where jurisdiction over a custody
dispute is properly placed.” Id., quoting Yang v. Tsui,
416 F.3d 199, 203 (3d Cir. 2005).
4.
Pursuant to Article 16 of the Convention, Japan
is the proper jurisdiction to determine custody as the
Japanese Supreme Court found that the children need
not be returned to Minnesota and to return them
would expose them to a grave risk of harm. Pursuant
to the Supremacy Clause of the United States
Constitution, the Convention supersedes state law to
the contrary. See U.S. Const., art. VI, cl. 2; Voorhees

31
v. Fischer & Krecke, 697 F.2d 574, 575 (4th Cir.
1983)(the Convention is considered to be of equal
dignity with acts of Congress); see also Shults v.
Shults, 2012 WL 254496 (Minn. Ct. App. 2012) (by
virtue of the Supremacy Clause, the Convention preempts inconsistencies prescribed by state law in all
cases to which it applies). App. 237a. Thus, the
Convention, as federal law, supersedes the UCCJEA
to the extent they are inconsistent.
5.
Important principles of U.S. federal law require
the United States and the several states to interpret
child custody laws, such as the UCCJEA, in a way
consistent with the Convention and with other
signatory countries’ application of the Convention.
By way of illustration, the UCCJEA was
promulgated to clarify a number of ambiguities that
caused the Uniform Child Custody Jurisdiction Act
(“UCCJA”), to be interpreted differently and applied
inconsistently from one U.S. jurisdiction to another.
See Watson v. Watson, 724 N.W.2d 24 (Neb. 2006),
citing Kelly Gaines Stoner, The Uniform Child
Custody Jurisdiction & Enforcement Act (UCCJEA) –
A Metamorphosis of the Uniform Child Custody
Jurisdiction Act (UCCJA), 75 N.D. L. Rev. 301 (1999).
The UCCJEA clarified the rule for original,
modification, and enforcement jurisdiction in a way
that minimized concurrent jurisdiction and
jurisdictional conflict. Id., citing Seamans v. Seamans,
37 S.W. 693 (Ark. App. 2001). In the same way the
consistent, application of the Convention is needed to
avoid jurisdictional conflict.
The UCCJEA (Minn. Stat. § 518D) states, a
court of this state may enforce an order for the return
of the child made under the Hague Convention... as if

32
it were a child custody determination.” Minn. Stat. §
518D.302. The lower courts interpreted an “order for
the return of the child,” as only an order granting the
return of the child. However, this view violates Article
16 which clearly recognizes orders not to return as
valid under the Convention. By interpreting the
statute in this way, the lower Minnesota courts
construed the UCCJEA in a way that ignores its
purpose and actually serves to create jurisdictional
conflict, including conflict with the Convention.
6.
Ironically, the lower court reasserted
jurisdiction to be consistent with the Original Hague
Order. The Original Hague Order’s requirement to
return the children to the United States was the crux
of the district court’s finding that the “Japanese court
has effectively declined or likely will decline to
exercise jurisdiction on the ground that [Minnesota] is
the more appropriate forum by ordering the return of
the children to the United States.” App. 141a.
However, the Modified—and then Final—Hague
Orders reversed the Original Hague Order and
determined the children should not be returned.
Pursuant to Article 16, once Japan made this
determination, it could and did assert custody
jurisdiction. By the district court’s earlier reasoning,
it had no choice but to recognize Japan’s
determination that it has the authority to determine
custody.
The district court erred in at least two ways by
determining the Hague Final Order (affirming the
Modified Order) did not have a material impact on
subject matter jurisdiction. The district court ignored
Convention Article 16, which provides that the
Contracting State to which a child is removed must

33
not decide on the merits of rights of custody “until it
has been determined that the child need not be
returned under the Convention.” Convention, Article
6 (emphasis added). The district court reasoned that
while the Modified Hague Order altered the Original
Hague Order such that the children were no longer
required to return to the United States, it did not
explicitly modify any of the other findings in the
Original Hague Order. App. 4a, 33a., 90a., 97 a. This
myopic analysis misses the primary significance of the
Modified (and Final) Hague Order—namely the
critical fact that the children were no longer required
to be returned to Minnesota. This determination
triggers the clear text of Article 16. The lower courts
then had an obligation under the Convention to
recognize and enforce the relevant Japanese Hague
Orders as part of its duty as a member state under the
Supremacy Clause, U.S. Const., art. VI, cl. 2. The
lower courts failure to do so frustrates the principles
behind Article 16 and the UCCJEA and should be
reversed.
7.
A child may not be ordered to return to its
country of habitual residence for many reasons set
forth in the Convention, including Articles 12, 13, and
20. The text of Article 16 creates a jurisdictional
threshold when the Contracting State where the
children are located should exercise custody
jurisdiction. Without guidance from this Court, the
UCCJEA authorizes a state court to also exercise
custody jurisdiction and march forward with
simultaneous custody proceedings. This conflict will
arise again and again when a child is not ordered to
be returned to his or her habitual residence, putting
children and parents in impossible situations.

34
This Court should grant review to address the
conflict between Article 16 of the Convention and the
UCCJEA when Contracting States do not order the
return of a child.
III.
THIS CASE PRESENTS AN EXCELLENT
VEHICLE
TO
ADDRESS
THESE
TWO
IMPORTANT QUESTIONS.
The Court has an opportunity to resolve
questions about the legal standard for comity of
Treaty Partner’s decisions under the Convention and
affirm the strong presumption in favor of comity,
recognition, and enforcement. The Court must affirm
that the exceptions to this presumption must be very
narrowly construed.
The Court should further seize this valuable
opportunity to resolve important questions regarding
the interplay between federal law and international
treaties where a foreign court declines to order the
return of a child and then exercises its right to
determine custody issues under Article 16. Without
clarity, under the UCCJEA, states like Minnesota
may then proceed with simultaneous and conflicting
custody actions. Courts and litigants alike need
certainty about the proper jurisdictional venue for
child custody in situations where the children are not
ordered to be returned to their place of habitual
residence.
This case presents an excellent opportunity for
the Court to resolve these important questions and to
provide guidance to state courts, provide uniformity
throughout the United States to prevent a flood of relitigation of foreign Convention decisions, and to

35
preserve the credibility of the United States as a
Contracting State.
CONCLUSION
The Convention serves as an important
deterrent to, and remedy for, wrongful parental
abduction. It is equally important, however, for U.S.
courts to honor, recognize, and enforce final Hague
decisions of Treaty Partners, in order to prevent a
flood of re-litigation of those decisions in U.S. state
courts and to preserve the integrity of the United
States as a Contracting State. The Minnesota lower
courts’ decisions set a dangerous precedent. To permit
state courts to ignore final decisions of other
Contracting States on this issue of international law,
re-litigate the facts, and substitute its judgment
threatens existing federal case law with a strong
presumption in favor or comity. Minnesota’s decision
only encourages jurisdictional competition and
undermines core purposes of the Convention and
principles of federal and international law. The Court
should grant review before the purpose of the
Convention and integrity of the United States are
further undermined by similar court rulings.

36
Respectfully submitted:
AMY M. KEATING*
ANDREW A. ZASHIN
CHRISTOPHER R.
REYNOLDS
ZASHIN & RICH CO.,
L.P.A.
950 Main Avenue, 4th
Floor
Cleveland, OH 44113
(212) 696-4441
aaz@zrlaw.com
crr@zrlaw.com
aaz@zrlaw.com
*COUNSEL OF RECORD

VALERIE D. ARNOLD
MICAELA A.
WATTENBARGER
MICHAEL G. CAIN
ARNOLD, RODMAN &
KRETCHMER, P.A.
2626 E 82nd Street,
Suite 355
Bloomington, MN
55425
(952) 955-8008
val@arkmn.com
micaela@arkmn.com
mcain@arkmn.com

Counsel for Petitioner
DATED:

December 18, 2020

